OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
ACTIVITY PLANNING AND
ITS REPORTING PROCESS
UNDER SECTION 2207 OF
PUBLIC LAW 108-106
AUDIT REPORT NO. E-267-07-005-P
JUNE 6, 2007




BAGHDAD, IRAQ
Office of Inspector General


June 6, 2007

MEMORANDUM

TO:            USAID/Iraq Mission Director, Hilda Arellano

FROM:          Regional Inspector General, Baghdad, Nancy J. Lawton /s/

SUBJECT:       Audit of USAID/Iraq's Activity Planning and Its Reporting Process under
               Section 2207 of Public Law 108-106 (Report No. E-267-07-005-P)


This memorandum transmits our final report on the subject audit and contains no
recommendations for your action. We received your comments on the draft report and included
those comments as Appendix II.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

Evaluation of Management Comments ......................................................................... 5

Appendix I – Scope and Methodology .......................................................................... 6

Appendix II – Management Comments ......................................................................... 7

Appendix III – Table of Selected Activities Planned by
               USAID/Iraq Funded by IRRF II .............................................................. 8
SUMMARY OF RESULTS
The Regional Inspector General in Baghdad, Iraq, conducted this audit to determine
whether USAID/Iraq planned and reported on selected activities in accordance with
applicable guidance (page 2).

USAID/Iraq followed the applicable guidance when planning and reporting on selected
activities. USAID/Iraq followed its Automated Directives System’s 12 pre-obligation
requirements when planning its activities and completed the 5 required steps for activity
planning. For example, USAID/Iraq ensured that (1) there was an illustrative budget for
the activity, providing a reasonably firm estimate of the cost to the U.S. Government; and
(2) there was a plan for monitoring the performance of the activity. USAID/Iraq also
ensured that it had a procurement plan, an Activity Approval Document, and that the
activity was formally approved (page 3).

USAID/Iraq reported on its activities that are funded under the Iraq Relief and
Reconstruction Fund II on a quarterly basis to the Iraq Reconstruction Management
Office (IRMO) 1 . Quarterly reporting of project expenditures is a requirement of Section
2207 of Public Law 108-106, the Emergency Supplemental Appropriations Act for
Defense and for the Reconstruction of Iraq and Afghanistan, 2004, but Section 2207
does not define what a project is. USAID defines a project, for the purpose of Section
2207, as all sub-sectors covered by an obligating instrument; IRMO defines a project as
any activity covering one sub-sector. Although IRMO was aware that USAID/Iraq used a
different definition of a project than IRMO’s when preparing its quarterly report, IRMO
accepted USAID’s Section 2207 quarterly reports. Therefore, we are not making a
recommendation (page 3).

Mission Management agreed with the findings in the report (page 5). Management
comments are included in their entirety as Appendix II.




1
  By Executive Order on May 9, 2007, the President created the Iraq Transition Assistance Office
(ITAO) as the successor organization to the Iraq Reconstruction Management (IRMO).



                                                                                              1
BACKGROUND
In late 2002 USAID began contingency planning for possible humanitarian and
reconstruction efforts in post-conflict Iraq. As part of the strategic planning, USAID was
well prepared to mobilize significant development resources and technical expertise to
support humanitarian relief and reconstruction requirements.

After the cessation of major combat operations, USAID deployed a number of technical
staff to prepare for immediate reconstruction requirements. On July 27, 2003, USAID
officially announced the formation of its Mission to Iraq. Currently, USAID/Iraq
coordinates its programs in close cooperation with the Iraq Reconstruction Management
Office (IRMO). By Executive Order on May 9, 2007, the President created the Iraq
Transition Assistance Office (ITAO) as the successor organization to IRMO. As of
November 29, 2006, USAID had 175 Mission personnel deployed to the region.

On November 6, 2003, Congress approved Public Law 108–106, the Emergency
Supplemental Appropriations Act for Defense and for the Reconstruction of Iraq and
Afghanistan, 2004, which provided funding for the Iraq Relief and Reconstruction Fund
II (IRRF II). Section 2207 of this law requires the Director of the Office of Management
and Budget to submit to the House and Senate Committees on Appropriations a report
on the proposed uses of all funds under IRRF II. During fiscal years 2004, 2005, and
2006, USAID/Iraq obligated and disbursed approximately $3 billion in IRRF II funds. The
Section 2207 report is prepared quarterly and covers the use of all appropriated funds
under IRRF II on a project-by-project basis. The report also covers the proposed use of
anticipated obligations for the quarter following the report. The law further requires that
this report be updated and submitted quarterly to the House and Senate Committees on
Appropriations.

AUDIT OBJECTIVE
As an addition to its fiscal year 2006 annual audit plan, the Regional Inspector General
in Baghdad conducted this audit to answer the following question:

    •   Did USAID/Iraq plan and report on selected activities in accordance with
        applicable guidance?

Appendix I contains a discussion of the audit scope and methodology.




                                                                                         2
AUDIT FINDINGS
USAID/Iraq planned and reported on selected activities 2 in accordance with applicable
guidance. USAID/Iraq planned its activities in accordance with the requirements of the
Automated Directives System (ADS). USAID/Iraq also followed the directions of the Iraq
Reconstruction Management Office (IRMO) for reporting on its activities. IRMO’s
directions were based on the requirements of Section 2207 of Public Law 108-106.

Appendix III summarizes the 12 activities selected for planning examination and their
relevant sectors and sub-sectors, set by IRMO.

Planning - USAID/Iraq planned its activities in accordance with the Agency’s five
mandatory steps for activity planning set forth in the ADS, Chapter 201 - Planning. Those
steps are:

    •   Conduct analyses as required,
    •   Formulate initial cost estimate and develop financial plan,
    •   Develop acquisition and assistance plan,
    •   Prepare activity approval document, and
    •   Obtain formal approvals/approve document.

USAID/Iraq also planned its activities in accordance with the 12 pre-obligation
requirements set forth in the ADS, which include:

    •   Developing an illustrative budget that provides a reasonable estimate of cost to
        the United States Government,
    •   Providing a performance monitoring plan,
    •   Providing clear implementation time frames, including completion date,
    •   Ensuring that funds are available for the activity, and
    •   Ensuring that Congress has been properly notified.

For example, the Mission required partner organizations to include illustrative budgets and
monitoring plans in their proposals. In addition, USAID/Iraq ensured that funds were
available for the activities, as required by the ADS, and notified Congress of the Agency’s
intention to start the activities.

Reporting - USAID/Iraq also reported on its activities as required by Section 2207 of
Public Law 108-106. Section 2207 requires the submittal of quarterly reports, including
the use of funds on a project-by-project basis. However, the law did not provide a clear
definition of the term “project,” and USAID and IRMO interpret the term differently.
USAID defines a project, for the purpose of Section 2207, as all sub-sectors covered by
an obligating instrument; IRMO defines a project as any activity covering one sub-sector.
However, according to IRMO officials, IRMO is aware of what information USAID/Iraq
includes in the Section 2207 reports, and IRMO is accepting the submitted information.

2
  USAID’s Automated Directives System (ADS) defines an activity as a set of actions through
which inputs, such as commodities, technical assistance, training, or resource transfers, are
mobilized to produce specific outputs, such as vaccinations given, schools built, microenterprise
loans issued, or policies changed.


                                                                                               3
IRMO collects the information from all involved agencies and submits a report to the
State Department to submit to Congress.

To begin the reporting process for Section 2207, IRMO sends a notification to
USAID/Iraq at the end of the quarter. The notification includes instructions for preparing
the report, writing guidance, and timeline flow. The notification also includes a project
code for each award required to be reported on by USAID. USAID and IRMO
communicate to clarify any questions until IRMO accepts USAID/Iraq’s submission.

On July 31, 2006, the Special Inspector General for Iraq Reconstruction (SIGIR) issued
a report 3 stating that USAID’s accounting systems and processes are inadequate and
failed to accurately identify and report project costs. SIGIR’s finding was directed at the
allocation of construction costs between various projects under a construction contract
and the reporting of these costs under Section 2207. As a result, USAID/Iraq changed
its methodology for allocating and reporting costs under the construction contract.
USAID’s accounting system tracks funds at a different level from what IRMO requests
for the 2207 report; however, it conforms to U.S. Government-wide established
requirements and standards.

In response to the SIGIR report, USAID asked its contractors to revise their reporting
methods to meet IRMO’s definition of a project, but because of the non-reimbursable
costs that would be incurred to change their approved accounting systems to conform to
this request, only one contractor acted upon this request. As a result, USAID/Iraq
reported on its activities for this contractor using actual disbursements on a project-by-
project basis as defined by IRMO. For all other agreements covering more than one
sub-sector, USAID/Iraq reported using an allocation method based on the percentage of
the sub-sector’s budget in the agreement. For other agreements that cover only one
sub-sector, there is no reporting issue.

USAID/Iraq used the allocation method because the ADS did not require the Mission’s
accounting system to record disbursements on a project-by-project basis as interpreted
by IRMO. As a result, IRMO is including two different types of financial data in its
quarterly reports to Congress: actual disbursements and allocation of actual
disbursements.

IRMO officials said that USAID should be reporting actual disbursements for different
projects, as interpreted by IRMO, and that IRMO is aware of the allocation methodology
USAID/Iraq is using to report project disbursements. Although IRMO does not prefer the
allocation methodology, it is accepting USAID/Iraq’s reports. Therefore, we are not
making a recommendation.




3
 SIGIR issued an audit report on Review of the U.S. Agency for International Development’s
Management of the Basrah Children’s Hospital Project, report number SIGIR-06-026, dated July
31, 2006.


                                                                                          4
EVALUATION OF
MANAGEMENT COMMENTS
In commenting on our draft report, USAID/Iraq agreed with the findings.

The Mission included three minor corrections to some of the audit report statements, and
where we agreed, we revised the report accordingly.

Management comments are included in their entirety in Appendix II.




                                                                                      5
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Baghdad (RIG/Baghdad) conducted this audit in
accordance with generally accepted government auditing standards. The purpose of the
audit was to determine if USAID/Iraq planned and reported on selected activities in
accordance with applicable guidance. RIG/Baghdad performed the audit fieldwork at
USAID/Iraq from September 4 through December 18, 2006.

In planning and performing the audit, we assessed management controls pertaining to
proper authorizations and approvals, and contractual and financial documentation.
Specifically, we reviewed and evaluated (1) requests for proposal, (2) Modified
Acquisition and Assistance Request Documents, (3) technical analyses, (4) technical
proposals, (5) congressional notifications, (6) environmental examination documentation,
(7) obligating instruments, (8) reports generated by USAID’s accounting system, and (9)
USAID/Iraq’s financial database reports. Our audit covered activities carried out under
contracts and grants that were awarded by USAID/Iraq during fiscal years 2004 through
2006. The audit looked at all USAID/Iraq activities funded by the Iraq Relief and
Reconstruction Fund II (IRRF II) and reporting for the purpose of Section 2207 of Public
Law 108-106.

Methodology
To answer the audit objective, we reviewed pertinent guidance, such as ADS chapter
201 - Planning, and Section 2207 of Public Law 108-106. We interviewed key members
of the strategic objectives teams; Mission staff in financial, legal, acquisition and
assistance, and program offices; and Iraq Reconstruction Management Office personnel.

To determine whether USAID/Iraq planned selected activities in accordance with the
Agency’s 12 pre-obligation requirements and the 5 mandatory steps for activity planning
disclosed in the relevant ADS chapter, we reviewed the files for all activities awarded by
USAID/Iraq under IRRF II during fiscal years 2004 to 2006. Accordingly, our audit
covered 12 activities funded by USAID/Iraq.

To determine whether USAID/Iraq reported on selected activities in accordance with
Section 2207 of Public Law 108-106, we reviewed the reports submitted by USAID to the
Iraq Reconstruction Management Office for the two quarters ending June 30 and
September 30, 2006. We judgmentally selected two contracts for our review, each
covering one of the two reporting methodologies that USAID/Iraq uses in its Section
2207 reporting from the quarter ending on September 30, 2006.




                                                                                        6
                                                                            APPENDIX II



MANAGEMENT COMMENTS


                                                     May 22, 2007


MEMORANDUM

TO:           Regional Inspector General, Baghdad - Nancy J. Lawton

FROM:         Acting Director – Michael Harvey /s/

SUBJECT:      Audit of USAID/Iraq’s Activity Planning and Its Reporting Process under
Section 2207 of Public Law 108-106 (Report No. E-267-07-00X-P)


USAID/Iraq welcomes the opportunity to respond to the subject draft report. USAID/Iraq
has reviewed the report in its entirety and agrees with the findings, but provides the
clarifications listed below:

1. Page 4, para 1, line 3: The notification includes…writing guidance, and timeline
   flow, should read “The notification includes…written guidance, timeline flow, and a
   section for each Project Code (PC) for each award required to be reported on by
   USAID.”

2. Page 4, para 2, line 3: failed to accurately…project costs. should read “failed to
   accurately identify and report cost to complete information for each project.”

3. Page 4, para 2, line 6: its methodology...construction contract, should read “its
   methodology…and reporting cost to complete information under the construction
   contract”.

Thank you.




                                                                                         7
                                                                              APPENDIX III


      Table of Selected Activities Planned by USAID/Iraq Funded by IRRF II

                Activity                      Sector                    Sub-sector
1- Provide support for community       Security and Law
                                                                Focused Stabilization
stabilization program.                 Enforcement
2- Provide technical assistance to
help Iraqis overcome problems of
legal, fiscal, institutional, and
                                                                Rule of Law
regulatory frameworks and
                                       Justice, Public
functions that complicate private
                                       Safety Infrastructure,
investment and trade flows.
                                       and Civil Society
3- Support development of civil
society and the media.
                                                                Democracy-Building
4- Program for supporting the Iraqi
                                                                Activities
Governing Council and Interim
Legislative Body.
5- Transitional governance and         Roads, Bridges, and      Public Buildings
constitutional development.            Construction             Construction and Repair
6- Assist Ministry of Health in
training staff for 150 model
primary health care centers.                                    Equipment Procurement
                                       Health Care
7- Emergency immunization                                       and Modernization
campaign for measles elimination
and mumps and rubella control.
8- Rehabilitate, open, and operate
vocational training and                                         Expanded Net of
employment services at                                          Employment Centers
designated locations.
9- Rehabilitate, open, and operate
vocational training and
                                                                Vocational Training
employment services at                 Private-Sector
designated locations.                  Development
10- Provide technical assistance
to help Iraqis overcome problems
of legal, fiscal, institutional, and
                                                                Institutional Reforms
regulatory frameworks and
functions that complicate private
investment and trade flows.
11- Assist the Government of Iraq
to strengthen management
                                       Education,               Ministerial Capacity
capability of the executive branch
                                       Refugees, Human          Building
institutions and key training
                                       Rights, Democracy,
centers.
                                       and Governance
12- Support development of civil
                                                                Human Rights
society and the media.




                                                                                          8
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
